WAIVER

Supreme Court of the United States

No, 19-49
Michael Simons v. Boston Scientific, et al.
@etitioner) . (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
& Please enter my appearance as Counsel of Record for all respondents.

O There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

& Iam a member of the Bar of the Supreme Court of the United States.

O Iamnot supe a member of the Bar of this Court. Should a response be requested,

wm [as a!

Charles F. Knapp

 

 

 

 

 

(Type or print) Name.
Mr. OMs. O Mrs. D Miss
Firm. Faegre Baker Daniels LLP
‘Address 2200 Wells Fargo Center, 90 S. 7th Street
City & State, Minneapolis, Minnesota Zip 55444

 

Phone 612-766-8107

 

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Cc; William J. Martin
Mary D. DiBernardo
Martin, Gunn & Martin, P.A.
216 Haddon Avenue
Westmont, New Jersey 08108

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
